                                                        NATIONAL SCIENCE FOUNDATION
                                                         OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

 Case Number: A08110063                                                                     Page 1 of 1



                 We received information that a department chairman1 was creating a hostile working
         environment and withholding universig support from an NSF-funded PI.^ In particular, there was
         concern that the PI'S release time from teaching was either not being given or not being funded
         properly. With respect to the hostile working environment assertion, we referred the PI to the
         university human resources 1 equal opportunity office as well as to NSF's Office of Equal
         Opportunity Programs. During our inquiry, the PI negotiated a resolution with the university.
         Afterward, we reviewed documentation for the PI'S release time and identified no issues warranting
         further investigation.

                    Accordingly, this case is closed.




NSF OIG Form 2 (1 1/02)
